                             Office of the Inspector General

August 25, 2000

William A. Halter
Deputy Commissioner
 of Social Security

Inspector General


Status of the Social Security Administration's Updates to the Medical Listings
(A-01-99-21009)


Attached is a copy of our final report. Our objective was to evaluate the Social Security
Administration's actions to update the medical listings used to determine whether an
individual is disabled.

Please comment within 60 days from the date of this memorandum on corrective action
taken or planned on each recommendation. If you wish to discuss the final report,
please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
General for Audit, at (410) 965-9700.




                                                James G. Huse, Jr.


Attachment
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION




  STATUS OF THE SOCIAL SECURITY

    ADMINISTRATION'S UPDATES

     TO THE MEDICAL LISTINGS


   August 2000     A-01-99-21009




     EVALUATION

       REPORT

                 EXECUTIVE SUMMARY


OBJECTIVE

Our objective was to evaluate the Social Security Administration's (SSA) actions to
update the medical listings used to determine whether an individual is disabled.

BACKGROUND

SSA first included the Listing of Impairments (medical listings) in its regulations in 1968
to help expedite the processing of disability claims under the Disability Insurance (DI)
program. The medical listings have also been used for the Supplemental Security
Income (SSI) program since it began in 1974. The medical listings for each body
system describe impairments that are considered severe enough to prevent an adult
from doing any gainful activity or to cause marked and severe functional limitations in a
child younger than 18 years of age. Most of the listed impairments are permanent or
expected to result in death; but some include a specific statement of duration. For all
others, the evidence must show that the impairment has lasted or can be expected to
last for a continuous period of at least 12 months.

From 1968 to the mid-1980s, SSA made revisions to the medical listings for various
reasons by adding and/or deleting information/criteria as necessary. The last major
update of the medical listings occurred in 1985, at which time, expiration dates ranging
from 3 to 8 years were inserted for medical listing sections. SSA stated that expiration
dates were necessary to ensure that the Agency periodically reviews (and, if necessary,
updates) the listings to take into consideration medical advances in the treatment and
evaluation of disabilities and program experience.

By the late-1990s, the Office of the Inspector General (OIG), the General Accounting
Office, and the Social Security Advisory Board were expressing concern that SSA was
not updating the listings regularly, but was simply extending the expiration dates for a
number of years before they expired. For example, in 1997, SSA submitted to the OIG
for comments a regulation package to extend the expiration dates for eight medical
listings. The OIG expressed its concern that blanket extension of listings, which have
not been reviewed, frustrates the purpose of setting expiration dates.

RESULTS OF REVIEW

SSA has acknowledged that some medical listings have not been updated during the
last 10 years. SSA staff attributed these delays to staff shortages, competing priorities,
and research limitations. For example, SSA has not made a comprehensive revision of
the adult mental disorders listings in the last 15 years, even though the adult mental


                                             i
disorders listings are the most common basis for medical disability in initial claims filed
by adults. SSA is now finalizing a partial update for the adult mental disorders listings.
Also, SSA will propose a new rule to revise the rest of the adult mental disorders listings
once further review and research have been completed. Out-of-date medical listings
can lead to more lengthy medical evaluations and/or increase the risk of inappropriate
decisions being made, as in the case of the obesity listing, which was deleted in 1999.

SSA has also taken steps to improve the listing update process by adding staff and
establishing a strategy to complete the updates. Further, SSA has contracted for
research on disability criteria to support some listing updates. SSA is also expanding
its disability research on matters related to the process for deciding disability cases.
The latter research could have a significant impact on medical listing updates in the
future.

ISSUES IMPACTING MEDICAL LISTING UPDATES PRIOR TO 1998

SSA has acknowledged that some medical listings have not been updated timely due to
low staffing levels. By the mid-1990s, the Office of Disability (OD) had lost some of its
expertise in policy matters as a result of: (1) additional staff cutbacks; (2) retirement of
older, experienced staff; and (3) diversion of OD staff to assist other components. In
addition, medical listing updates became a less pressing issue as SSA shifted its
attention and resources to implementing Disability Redesign and addressing new
legislative mandates. Finally, OD did not have the staff or time to do necessary
research on disability criteria and issues related to Disability Redesign.

STATUS OF THE MENTAL DISORDERS LISTINGS

SSA has been slow to update the medical listings related to adult mental disorders,
impairments that account for the highest percentage of new disability awards. During
1998, approximately 24 percent of the adults awarded benefits under the DI program
and 35 percent under the SSI program, were based on mental impairment disabilities.
However, the last comprehensive revision of the adult mental disorders listings was in
1985. SSA proposed an update of the adult mental disorders listings in 1991, but this
rule was never finalized. SSA staff and other disability experts acknowledge the need
to update the mental disorders listings to improve equity in disability findings and
eliminate outdated terminology.

STRATEGY FOR UPDATES SINCE 1998

In 1998, SSA initiated an ongoing effort to update the medical listings by requesting
input on needed revisions from various SSA components and establishing a strategy
and goals to accomplish the revisions. SSA has also added 15 full-time policy analysts
to the OD division responsible for updating the medical listings. Further, SSA
established a 3-phase strategy for the updates, though none of the phases have stated
completion dates. In Phase I, SSA will finalize those portions of the 1991 proposed rule
for adult mental disorders that require no further revisions or comments. In Phase II,


                                             ii
SSA will update the remaining portions of that rule. OD staff informed us that updating
all of the mental disorders listings will require more time for review and research of
disability criteria. OD has initiated additional work on the mental disorders listings and
has not restricted its investigations to the remaining parts of the 1991 proposed rule.

As noted in its Annual Performance Plan (APP), SSA has also initiated a number of
research activities in its overall strategy to "Promote policy changes, based on
research, evaluation and analysis." Some of these efforts, which address the disability
evaluation process, could have a significant impact on medical listings in the future.
Keeping the medical listings up-to-date is one of OD’s fundamental responsibilities.
The update process for medical listings can be lengthy and requires adequate research
of disability criteria to support any revisions contemplated. Given the importance of
medical listings to the disability decision process, the status of the update process
would be a useful performance indicator in SSA’s APP. In this way, Congress could be
assured that SSA is keeping the listings current and conducting the necessary research
to support this update process.

CONCLUSIONS AND RECOMMENDATIONS
We commend SSA for making the medical listings a priority in 1998. Although SSA
was slow to update some of the medical listings between 1985 and 1998, the Agency is
now making progress in updating these listings. SSA’s recently issued proposed and
final rules, as well as their research efforts to better understand evolving medical and
work-related environmental changes, are evidence of a commitment to move the
process in the right direction. However, updating the rest of the mental disorders
listings needs to remain a key concern for SSA given the current and potential number
of claims based on this listing. In addition, SSA should provide a timetable indicating
the planned start and completion dates for each section in its 3-phase plan, so that both
SSA and the Congress have benchmarks for measuring the progress of the update
process.

To ensure SSA remains focused on updating all the mental disorders listings, as well as
enhancing the usefulness of future APPs, we recommend that SSA establish a
performance measure for its initiative to update the medical listings, with a specific
timetable for each of the planned phases.

AGENCY COMMENTS

In response to our draft report, SSA agreed that updating the rest of the mental
disorders listings needs to remain a key concern and that SSA needs to keep a focus
on updating the listings from a performance perspective. However, SSA did not agree
to accomplish this through the establishment of a performance measure, with specific
timetables for each of the phases. (See Appendix B for SSA's comments to our draft
report.)




                                             iii
OFFICE OF THE INSPECTOR GENERAL RESPONSE

The Government Performance and Results Act of 1993 requires SSA to develop
performance indicators that assess the relevant service levels and outcomes of each
program activity. We believe that maintaining updated medical listings for assessing
disability is a crucial function for the Agency in measuring its performance. Accordingly,
we continue to believe that SSA should develop and report on a measure to assess the
service level and outcomes of its listings update activities.




                                            iv
                        TABLE OF CONTENTS


                                                                                                              Page

EXECUTIVE SUMMARY.........................................................................................i


INTRODUCTION .................................................................................................... 1


RESULTS OF REVIEW.......................................................................................... 7


   ISSUES IMPACTING MEDICAL LISTING UPDATES PRIOR TO 1998 ............ 7


   STATUS OF THE MENTAL DISORDERS LISTINGS ........................................ 8


   �    Updates to the Mental Disorders Listings ..................................................... 9

   �    Proposed Rule for Adult Mental Disorders.................................................. 10


   STRATEGY FOR UPDATES SINCE 1998....................................................... 11


   �    Mental Disorders Listings............................................................................ 12

   �    On-Going Research Efforts......................................................................... 13


CONCLUSIONS AND RECOMMENDATIONS .................................................... 15


APPENDICES
APPENDIX A – Mental Disorders Medical Listings Timeline
APPENDIX B – Agency Comments
APPENDIX C – OIG Contacts and Staff Acknowledgments
APPENDIX D – SSA Organizational Chart
                                    INTRODUCTION


OBJECTIVE

Our objective was to evaluate the Social Security Administration's (SSA) actions to
update the medical listings used to determine whether an individual is disabled.

BACKGROUND

SSA first included the Listing of Impairments (medical listings)1 in its regulations in 1968
to help expedite the processing of disability claims under the Disability Insurance (DI)
         2
program. The medical listings have also been used for the Supplemental Security
Income (SSI) program3 since it began in 1974. The medical listings are objective
medical criteria that help simplify the disability evaluation process for lay and medical
people who process initial claims. The listings also help ensure that:

      • determinations of disability have a sound medical basis;
      • claimants receive equal treatment based on specific criteria; and
      •	 disabled individuals can be readily identified and awarded benefits, if
         appropriate.

Medical Listings and the Sequential Evaluation Process

The medical listings for each body system describe impairments that are considered
severe enough to prevent an adult from doing gainful work or to cause marked and
severe functional limitations in a child younger than 18 years of age. Most of the listed
impairments are permanent or expected to result in death; but some include a specific
statement of duration. For all others, the evidence must show that the impairment has
lasted or is expected to last for a continuous period of at least 12 months.

The medical listings apply only to Step 3 of the 5-step sequential evaluation process for
determining disability (see Figure 1). At Step 3, the presence of an impairment(s) that
meets the criteria for a listing, or that is medically equivalent in severity to that of any
listed impairment (or, in the case of a child under age 18, that is functionally equivalent



1
 20 Code of Federal Regulations, Chapter III, Part 404, Appendix 1 to Subpart P - Listing of Impairments.
This DI program regulation also applies, by reference, to the SSI program.
2
    Title II of the Social Security Act.
3
    Title XVI of the Social Security Act.


                                                    1
to a listed impairment) is sufficient to establish that an individual who is not working is
disabled. However, if the severity of the impairment(s) does not meet or equal a listing,
in the case of individuals seeking DI benefits or adults seeking SSI disability benefits,
the sequential evaluation process continues until the disability issue is resolved at
               Figure 1: SSA Disability Evaluation Sequential Process

                Step 1: Field Office

                     Is the claimant engaging in              Yes
                     substantial gainful activity?                  Deny Claim

                                             No
                Step 2: Disability Determination Services (DDS)

                     Does the claimant have a severe          No
                     impairment that will last for at least         Deny Claim
                     12 months or result in death?

                                            Yes
                Step 3: DDS
                                                              Yes
                     Does the impairment meet or equal
                     the medical listings?                          Allow Claim


                                            No
                Step 4: DDS

                     Does the impairment prevent the          No
                     claimant from doing past relevant              Deny Claim
                     work?


                Step 5: DDS                 Yes

                     Does the impairment prevent the          No
                     claimant from doing any other work             Deny Claim
                     that exists in the national economy?

                                            Yes

                                  Allow Claim

Step 4 or Step 5.



The medical listings comprise two parts. Part A contains criteria that apply mainly to
the evaluation of adult impairments but may be used appropriately to evaluate
impairments in children under 18 years old if the disease process is similar in both
adults and children. Part B contains medical criteria that apply to the evaluation of
impairments of children under 18 years old where Part A criteria are inappropriate. The
medical listings for a given body system only contains examples of some of the most
frequently encountered impairments in the disability program and are not meant to be


                                                     2
inclusive of all possible impairments under that body system. See Table 1 for a listing
of the body systems.

                 Table 1: Medical Listing Sections for Adults and Children

        Part A Medical Listings – Adults                   Part B Medical Listings – Children
                                                        100.00 Growth Impairment
     1.00 Musculoskeletal System                        101.00 Musculoskeletal System
     2.00 Special Senses and Speech                     102.00 Special Senses and Speech
     3.00 Respiratory System                            103.00 Respiratory System
     4.00 Cardiovascular System                         104.00 Cardiovascular System
     5.00 Digestive System                              105.00 Digestive System
     6.00 Genito-urinary System                         106.00 Genito-urinary System
     7.00 Hemic and Lymphatic System                    107.00 Hemic and Lymphatic System
     8.00 Skin
     9.00 Endocrine System                              109.00   Endocrine System
    10.00 Multiple Body Systems                         110.00   Multiple Body Systems
    11.00 Neurological                                  111.00   Neurological
    12.00 Mental Disorders                              112.00   Mental Disorders
    13.00 Neoplastic Diseases                           113.00   Neoplastic Diseases
    14.00 Immune System                                 114.00   Immune System
Source: SSA Publication 64-039, “Disability Evaluation under SSA,” January 1998 (commonly known as
the “Blue Book”).

History of the Medical Listings

Since the outset of the DI program in 1955, SSA has used a list of impairment criteria to
determine a claimant’s disability in regard to his or her initial application. These early
listings were based mostly on “advice from a national group of medical advisors and
partly on the experience of other agencies administering their own disability programs.”4
As SSA gained additional operating experience, it reviewed and revised the listings
periodically to reflect that experience and to meet new requirements resulting from
changes in the Social Security Act.

In 1968, SSA reviewed and revised all of the early listings based on the additional years
of experience and incorporated the new Listing of Impairments into the Code of Federal
Regulations (CFR). Use of the criteria became mandatory immediately for the DI
program and, from its inception, for the SSI program.5 Childhood medical listings were


4
    50 Federal Register (FR) 50068

5
 The Listing of Impairments was added to the title II regulations in CFR Chapter III, Appendix 1 to Subpart
P of Part 404. The SSI program adopted the criteria when it began in 1974. SSA included the same
Listing of Impairments in the title XVI regulations in 20 CFR as Appendix 1 of Subpart I of Part 416. The
Listing was again updated in 1979 to reflect advances in the medical treatment of and in the evaluation of
some listed conditions. SSA re-codified the subparts in 1980, taking the medical criteria for the SSI


                                                    3
added in 1977. By that time, it became evident through program experience that
separate listings for children were needed because most disease processes affected
children differently than adults, or the disease was found only in children.

SSA has periodically ensured that the medical information and the structure of the
listings were both acceptable for program purposes and consistent with current medical
thinking. From 1968 to the mid-1980s, SSA made revisions to the medical listings for
various reasons by adding and/or deleting information/criteria as necessary. The last
general update of the medical listings occurred in 1985, when expiration dates ranging
from 3 to 8 years were inserted. SSA staff informed us that based on the decreasing
number of staff expected after the 1985 revisions, OD chose a range of years that was
commensurate with their workload and limited resources to accomplish the updates.

In 1985, SSA inserted the sunset provisions, which provided that each section of the
medical listings would no longer be effective after its respective expiration date unless
extended by the Secretary of Health and Human Services (now the Commissioner), or
revised and promulgated again. The sunset provisions were inserted so that the listing
sections would be periodically reviewed (and, if necessary, updated) to take into
account medical advances in the treatment and/or evaluation of disabilities, and past
program experience.

Since 1985, SSA has reviewed (and revised as necessary) individual medical listings
and categories of impairments6 to make:

    •   criteria changes that affect the number of claimants being found disabled;
    •   technical corrections;
    •   clarifications and language improvements;
    •   revisions that reflect changes in the law and program experience; and/or
    •   extensions of expiration dates.

However, most changes did not affect the number of claimants being found disabled,
but were technical corrections and/or extensions of the listings’ expiration dates. A
recent exception was the 1999 update to the endocrine section, which deleted obesity
as a listing-level impairment. Specifically, SSA deleted the obesity medical listing and
added guidance on the evaluation of obesity to the prefaces of the musculoskeletal,
respiratory, and cardiovascular body system listings.




disability program out of Part 416 and leaving them only in Appendix 1 of Subpart P of Part 404 of
20 CFR. The SSI regulations reference the DI Listing of Impairments. Because the same medical criteria
apply to both disability programs, the re-codification eliminated unnecessary repetition in the regulations.
6
 For example, since 1985, the following medical listings have been updated: cardiovascular disorders in
1994, endocrine and obesity in 1993, respiratory in 1993, immune in 1993, and endocrine in 1999. In
addition, SSA revised the childhood (Part B) mental disorders listings in 1990, and on May 19, 2000,
added a multiple body system section to the Part A listings.


                                                     4
As a result of program experience, SSA concluded that about 20 percent of the
individuals found disabled based on the prior obesity listing did not have the functional
limitation that would prevent them from engaging in gainful work. The listing was also
difficult to administer, and was subject to misinterpretation. Since the update in 1999,
individuals who claim an obesity impairment have their claims assessed under the




                                            5
appropriate body system listing(s). SSA estimated that deletion of the obesity listing
would reduce program outlays and result in DI program savings of $250 million over a
5-year period, starting in FY 2000.

By the late-1990s, the Office of the Inspector General (OIG), General Accounting Office
(GAO), and Social Security Advisory Board (SSAB) were expressing concern that SSA
was not updating the listings regularly, but was simply extending the expiration dates for
a number of years when the listings expired. For example, in 1997 SSA submitted to
the OIG for comments a regulation package to extend the expiration date for eight
medical listings. The OIG expressed its concern that blanket extension of listings,
which have not been reviewed, frustrates the intention of the sunset provision. In 1998,
GAO expressed concern about SSA's delay in revising the listings, particularly the
childhood listings, and noted that this was a long-standing problem they had reported
on 3 years earlier. 7

Other organizations have also noted the need for SSA to stay current with medical
developments. According to the National Academy of Social Insurance (NASI),8

    “…experts agree that the medical and vocational criteria used in determining
    disability need to be reviewed and periodically updated to ensure that past
    experience, new research and state-of-the art knowledge are systematically
    incorporated into the disability evaluation process.”

In particular, NASI’s Disability Policy Panel suggested that priority for review should be
given to categories of impairments that account for a significant portion of the disability
rolls or have rapid growth, such as mental impairments.

The SSAB has also pointed out the need for SSA to maintain a research base to
support its disability programs into the future. The SSAB recommended9 that research
be conducted on issues related to disability redesign, including the process for deciding
disability cases. For example, the research would address issues, such as:

    •	 how advances in medical treatment for severe impairments affect one’s ability to
       work;
    •	 the effect on program costs of increasing numbers of younger beneficiaries with
       mental impairments coming into the disability program and staying in it longer;
       and



7
 GAO/HEHS-98-123, “Supplemental Security Income: SSA Needs a Uniform Standard for Assessing
Childhood Disability,” May 6, 1998.
8
 NASI Disability Policy Panel, “Balancing Security and Opportunity: The Challenge of Disability Income
Policy,” 1996.
9
 SSAB, “Strengthening Social Security Research: The Responsibilities of the Social Security
Administration,” 1998.


                                                    6
   •	 the impact that changes in the nature of work have on employment of the
      disabled as the economy shifts from manufacturing and production industries to
      service industries.

SCOPE AND METHODOLOGY

To accomplish our objective, we:

   •	 Reviewed sections of the Social Security Act and SSA’s regulations, rules,
      policies and procedures pertaining to the medical listings;

   •	 Interviewed SSA staff responsible for maintaining and updating the medical
      listings;

   •   Interviewed a former Disability Determination Services (DDS) disability examiner;

   •	 Interviewed SSA staff regarding research being conducted on disability issues;
      and

   •	 Obtained outside medical experts’ perspectives of the mental disorders listings
      and the proposed 1991 revision of the mental disorders listings.

We performed our evaluation in Baltimore, Maryland; and Boston, Massachusetts
between August 1999 and February 2000. We conducted our evaluation in accordance
with the Quality Standards for Inspections issued by the President's Council on Integrity
and Efficiency.




                                            7
                       RESULTS OF REVIEW


SSA has acknowledged that some medical listings have not been updated during the
last 10 years. SSA staff attributed these delays to staff shortages, competing priorities,
and research limitations. For example, SSA has not made a comprehensive revision of
the adult mental disorders listings in the last 15 years, even though the adult mental
disorders listings are the most common basis for medical disability in initial claims filed
by adults. SSA is now finalizing a partial update for the adult mental disorders listings.
Also, SSA expects to propose a new rule to revise the rest of the adult mental disorders
listings once further review and research have been completed. Out-of-date medical
listings can lead to more lengthy medical evaluations and/or increase the risk of
inappropriate decisions being made, as in the case of the obesity listing, which was
deleted in 1999.

Since 1998, OD has resumed updating the medical listings after falling behind in the
1990s. Keeping the listings current is one of OD’s fundamental responsibilities. In
June 1998, SSA initiated a major top-to-bottom review of the medical listings. SSA has
also taken steps to improve the listing update process by adding staff and establishing
a 3-phase strategy to accomplish the concurrent updates. The 1998 initiative is still
ongoing, but no completion dates have been set for any of the phases or individual
medical listings.

ISSUES IMPACTING MEDICAL LISTING UPDATES PRIOR TO 1998
SSA staff has agreed that some medical listings currently in use have not been updated
timely and do not reflect the latest advances in medical treatments and diagnoses.
Prior to 1998, three issues impacted SSA’s ability to do concurrent updates of all the
listings: insufficient staff, competing priorities, and lack of adequate research on
disability issues.

According to SSA, after the last general update of the medical listings in 1985, the
decreasing number of OD staff was adversely impacting its ability to accomplish
periodic, comprehensive updates to the medical listings. By the mid-1990s, OD had
also lost some of its expertise in policy matters as the number of staff was reduced
further by one half. As noted by the SSAB10 and GAO,11 these losses were due to:



10
     SSAB, “Increasing Public Understanding of Social Security,” September 1997.
11
  GAO/T-HEHS-00-22, “Social Security Disability, SSA Has Had Mixed Success in Efforts to Improve
Caseload Management,” October 21, 1999.


                                                     8
     •   staffing cutbacks in the mid-1990s;
     •   retirement of older, experienced staff; and
     •   diversion of OD staff to assist other components.

SSA staff stated that another issue impacting medical listing updates relates to shifting
priorities at SSA, such as Disability Redesign and legislative mandates taking
precedence. The Disability Redesign plan anticipated a change in the way disability
would be evaluated. The plan, among other things, placed great emphasis on
assessing one’s ability to function, despite the presence of a medically determinable
impairment. Many SSA staff assumed that under this plan, pared-down medical listings
would emerge and eventually replace the current listings. However, by the late 1990s,
SSA realized that this aspect of Disability Redesign would not work as planned.

SSA also had to address new legislative mandates during the 1990s, such as the
Personal Responsibility and Work Opportunity Reconciliation Act of 1996 (Public Law
104-193), which is commonly known as the Welfare Reform law. This law required
SSA to redetermine the eligibility of children who were found eligible for SSI benefits
based on an individualized functional assessment or based on consideration of
maladaptive behavior in the personal/behavioral domain of certain listings. As part of
the new legislative requirements, OD had to redirect staff to:

     •   issue a regulation to implement the new childhood criteria;
     •   provide additional guidance to SSA components;
     •   train staff on the new procedures; and
     •   issue a Social Security Ruling to clarify issues related to these redeterminations.

A final factor impacting the updates can be traced to the lack of adequate research on
disability criteria to support medical listing updates. OD staff stated that because of the
staffing and time constraints noted above, they could not do the necessary research.
Also, the SSAB observed that SSA had not conducted enough research on disability
issues. For example, in its January 1998 report, the SSAB noted that SSA first needed
to increase its disability research capacity before making any significant changes in the
way claims based on disability are processed. SSA staff acknowledged that during the
1990s they did not always have the necessary research in place to support proposing
revisions to the medical listings or other disability projects. However, SSA has taken
steps to correct the problems and is currently conducting both kinds of research.

STATUS OF THE MENTAL DISORDERS LISTINGS

SSA’s last comprehensive update of the adult mental disorders listings was in 1985.12
The adult mental disorders listings are the most frequently used medical listings for



12
  In 1990, SSA made a technical change to the adult mental disorders listings to ensure consistency with
the childhood mental disorders listings.


                                                   9
disabled adults. Further, since 1985, there has been a gradual increase in the number
of awards based on mental impairments. Our review of SSA’s disability data for
calendar year 1998 shows that of all medical listings, initial claims based on mental
disorders accounted for the highest percentage of new awards. For example, during
calendar year 1998 approximately 24 percent of the adults awarded benefits under the
DI program and 35 percent under the SSI program were based on mental impairments.


     Figure 2: Adult Disability Awards Issued by DDSs in 1998
              Disability Insurance                 Supplemental Security Income
                402,188 Awards                           336,868 Awards

           25%                   17%                    26%                  14%



                                                                                   8%
                                       9%
                                                   8%
     14%                                                                           9%

                                    11%


                    24%                                                35%

           Musculoskeletal          Cardiovascular            Neurological
           Mental Disorders         Neoplastic Diseases       All Other Listings


By comparison, only 20 percent of DI awards in 1985 were based on mental
impairments.

Updates to the Mental Disorders Listings

In 1985, in compliance with the Social Security Disability Benefits Reform Act of 1984
(Public Law 98-460), SSA revised the mental disorders listings to reflect changes made
to the process of evaluating mental impairments and to reflect medical advancements
in the treatment and diagnosis of such impairments. Also, the revision updated the
terminology in the mental disorders listings to conform to terminology used in the
Diagnostic and Statistical Manual of Mental Disorders (DSM),13 third edition, which was
published in 1980.




13
   The DSM, published by the American Psychiatric Association, is widely used by mental health
professionals. It provides disability examiners and adjudicators with a common basis for communication
to evaluate medical reports used in determining disability.


                                                  10
Recognizing that periodic review and revision was needed to keep abreast of
developments in the diagnosis, evaluation and treatment of mental impairments, SSA
made the 1985 revision effective for only 3 years. During this 3-year period, SSA




                                         11

planned to monitor and evaluate the regulation’s impact on the disability programs.
When the effective period expired, the regulation would be extended, or revised and
promulgated again.

For example, one change in the 1985 revision addressed a major area of criticism and
deficiency of the prior mental disorders listings. Specifically, SSA recognized that
impairments in an individual with a mental disorder, such as chronic schizophrenia,
could be lessened by treatment, but the individual still could not work because side
effects produced by the medications add to his or her work-related limitations. SSA
added new evaluation considerations to the listing for schizophrenic, paranoid and other
psychotic disorders to address this prior deficiency in the listings. Under this 1985
change, a chronic schizophrenic individual who meets the severity of the revised listing
could be found disabled.

Prior to the August 1988 expiration date for the adult mental disorders listings, SSA
extended the effective period by 3 years to provide additional time to continue
evaluating the 1985 rules. During this period, the adult and childhood parts of the
mental disorders listings were being reviewed and updated separately. By December
1990, the update to the childhood listings14 had been finalized, while the adult listings
were still under review.

Proposed Rule for Adult Mental Disorders

In 1991, SSA proposed a rule to amend the adult mental disorders listings. The
revisions reflected advances in medical knowledge, treatment, and methods of
evaluating mental disorders, and provided up-to-date criteria for evaluating disability in
initial claims. The revision also made the diagnostic terminology for adult mental
disorders criteria consistent with the criteria in the 1990 revised childhood mental
disorders listings, as appropriate. If the 1991 proposed rule had been finalized, the
diagnostic terminology for the adult mental disorders listings would have been
standardized (like the 1990 childhood mental disorders listings), using the revised third
edition of the Diagnostic and Statistical Manual of Mental Disorders (DSM-III-R)
published in 1987 as the guide.

Two points in the DSM-III-R drew the most criticism from mental health organizations.
These were SSA’s proposal to amend the special procedure15 used to evaluate mental
impairments and the use of psychological testing. Concerns regarding the special
technique related to the scale points and the examples SSA proposed to illustrate the
level of functional loss associated with them. The issue regarding psychological testing



14
  The proposed rule was published at 54 FR 33238, "Disability Insurance and Supplemental Security
Income; Mental Disorders in Children," in August 1989.
15
  The special procedure used to evaluate mental impairments under these rules is found in 20 CFR
404.1520a and 20 CFR 416.920a.


                                                 12
involved the use of certain types of tests and whether they were useful. Under the
proposed rule, such psychological testing would have been limited to those situations




                                          13

where the required documentation of a mental impairment could not be obtained from
other sources. The proposed rule noted that:

   • the individual usually can best describe his or her own functional limitations; and
   •	 the presence of a mental impairment does not automatically rule out the
      individual as a reliable source of such information.

Under the 1985 medical listings, SSA placed greater reliance on such examinations and
tests, as well as third-party information, in determining disability.

A further revision addressed the issue of fairness in the functional criteria requirement
for the various categories of mental impairments. Under the 1985 mental disorders
listings, six listings required an applicant to satisfy two criteria of the functional group to
be considered disabled, while two other listings required an applicant to satisfy three
criteria from the same functional group to be considered disabled. The 1991 proposed
rule would make the number required consistent at two such criteria for all categories of
mental impairments having this same set of functional criteria.

Nonetheless, the 1991 proposed rule to update the adult mental disorders listings was
never finalized. As a result, the mental disorders listings has remained basically
unchanged for the last 15 years, or 5 times longer than SSA originally intended. (See
Appendix A for the timeline of updates to the mental disorders listings since 1985.)

In addition, mental health organizations and medical experts have advocated updates
to the adult mental disorders listings in their publications and public pronouncements
since the late 1980s. They expressed their concerns that limitations in the current
mental disorders listings can and do cause problems in the interpretation and
application of the listings in the disability evaluation process.

STRATEGY FOR UPDATES SINCE 1998

In 1998, SSA initiated a plan to update the medical listings by requesting input on
needed revisions from various SSA components, and establishing a strategy and goals
to accomplish the revisions. To help carry out that commitment, SSA added 15 full-time
policy analysts to OD’s Division of Medical and Vocational Policy (the division
responsible for updating the medical listings). Six of the new hires have advanced
degrees, including a doctor of physical medicine and rehabilitation, and a speech
analyst. The others include personnel transferred from other OD components and DDS
medical examiners.




                                              14
SSA is utilizing a 3-phase strategy in its plan to update the medical listings (see
Table 2). In 1999, OD’s Phase I accomplishments included:

    •	 an update of the endocrine system listings that deleted obesity as a listing-level
       impairment;
    • a Notice of Proposed Rulemaking (NPRM) for Adult Down Syndrome; and
    • numerous Fiscal Year (FY) 1999 research activities.

Among OD’s research activities were the awarding of two contracts to the National
Research Council to establish committees to address: (1) measurement and evaluation
of mental retardation; and (2) functional consequences of vision loss. Phases II and III
relate to completion of work started in Phase I as well as proposing additional medical
listing updates.

    Table 2: SSA's Strategy to Become Current with the Medical Listings

            Impairment                      Phase One           Phase Two          Phase Three
 Growth Impairment                                                                   NPRM
 Musculoskeletal System                         Final
 Special Senses and Speech                                                              NPRM
 Respiratory System                                                NPRM                  Final
 Cardiovascular System                                             NPRM                  Final
 Digestive System                                                  NPRM                  Final
 Genito-urinary System                                                                  NPRM
 Hemic and Lymphatic System                                        NPRM                  Final
 Skin (1)                                                          NPRM                  Final
 Endocrine System                                                  NPRM                  Final
  -- Obesity                                    Final
 Multiple Body Systems                                                                  NPRM
 Neurological                                                      NPRM                  Final
 Mental Disorders:
  -- Adult Down Syndrome                       NPRM                 Final
  -- Partial Mental Disorders                   Final
  -- Final Portion of Mental                                       NPRM                  Final
     Disorders (1)
 Neoplastic Diseases                                               NPRM                  Final
 Immune System (1)                                                                      NPRM
Note: (1) Updates to these listings were not included in the original plan submitted to the Commissioner.
During our review, OD staff provided this information regarding additional planned updates.

Mental Disorders Listings

During Phase I, SSA will finalize parts of the 1991 proposed rule for the adult mental
disorders listings that require no further revisions or comments. Despite the length of
time since the rule was first proposed, SSA staff have determined that finalizing such


                                                    15
parts of the update is allowable under the Administrative Procedure Act.16 Further, SSA
staff have determined that DSM-III-R terminology used in the parts being finalized in
Phase I is still appropriate for evaluating mental impairment(s). However, OD staff
stated that the remaining parts of the 1991 proposed rule cannot be finalized as written
because of limitations imposed by the Administrative Procedure Act.

SSA plans to issue a new proposed rule on the remaining portion of the adult mental
disorders listings during Phase II. Updating the remaining parts requires additional
review and research. SSA staff stated that additional work on the mental disorders
listings has been initiated. However, SSA staff also stated that they are not restricting
their investigations to just the remaining parts of the adult mental disorders listings.
Further, some of the language in the 1991 adult mental disorders proposed rule was
based on DSM-III-R which is outdated since another revision of the DSM has since
been published. Revising the remaining adult mental disorders listings is needed not
only to make technical corrections, but to make the listings current with the latest
advances in medical treatment and technology.

On-Going Research Efforts

SSA has also committed to improving the disability determination process, which
started with the Disability Redesign project in the early 1990s. In its FY 2000 Annual
Performance Plan (APP), SSA set a strategic objective to:

      "Promote policy changes, based on research, evaluation and analysis, that
      shape the disability program in a manner that increases self-sufficiency and
      takes account of changing needs, based on medical, technological,
      demographic, job market, and societal trends."

Some of the specific goals and indicators established under this objective include areas
that could affect the medical listings, depending on the results of research projects. For
example, three research projects underway are: (1) the Disability Evaluation Study;
(2) the Disability Research Institute; and (3) development of techniques for validating a
medical listing (see Figure 3 for a summary of these projects).

SSA's regulations requiring the periodic review and update of the listings, as well as the
current 3-phase approach for updating the medical listings, are consistent with the
strategic objective noted above. However, as the mental disorders listings indicate,
SSA has not been able to keep all the medical listings current. As we have noted in a
past report,17 the value of an APP is increased if it includes performance goals to
address mission-critical management problems.


16
  SSA is required to follow rule-making procedures specified in the Administrative Procedure Act. The
process from initial proposal to final regulation usually takes 1 to 2 years to complete. In the meantime,
SSA uses existing criteria to determine disability at Step 3 of the sequential disability evaluation process.
17
     SSA/OIG A-02-99-03007, “Review of the Social Security Administration's FY 2000 Annual Performance


                                                      16
Although SSA has identified the medical listings to be updated in each of the three
phases, it has not established time frames for their completion. Setting the completion
of each phase as a goal in the APP would not only show SSA's commitment to updating
the medical listings, but would also show Congress that SSA is responding to past
criticism and treats updating the listings as a priority.

                          Figure 3: SSA Research Projects

   Disability Evaluation Study: This 4-year national disability study of the
   working-age population is in the pilot study phase through the end of 2000. The
   main study will begin in January 2001. This study will assess:

          the size of the disabled population;

          identify those factors that enable some individuals with disabilities to work

          gainfully in the economy; and

          determine the potential for long-term growth in the disability program.


   Disability Research Institute: This project comprises one university-based,
   multi-disciplinary center that will use a network of scholars from a variety of
   institutions. The Institute will:

          conduct research in critical disability policy areas;

          disseminate important findings;

          provide a mechanism for training scholars in disability research; and

          assist in finding methods of sharing disability administrative data with

          researchers.


   Validating Medical Listings: SSA plans to award a research design contract to
   develop a methodology to help SSA monitor and evaluate the listings. The
   purpose of this methodology is to:

          establish appropriate criteria by which SSA can assess the ability of a

          claimant to work;

          identify and adopt research protocols and statistical methods; and

          propose clinical or other testing methods to gather data.





Plan,” November 1999.


                                            17
 CONCLUSIONS AND RECOMMENDATIONS


We commend SSA for making the medical listings a priority in 1998. Although SSA
was slow to update some of the medical listings between 1985 and 1998, the Agency is
now making progress in updating these listings. SSA’s recently issued proposed and
final rules, as well as their research efforts to better understand evolving medical and
work-related environmental changes, are evidence of a commitment to move the
process in the right direction. However, updating the rest of the mental disorders
listings needs to remain a key concern for SSA given the current and potential number
of claims based on this listing. In addition, SSA should provide a timetable indicating
the planned start and completion dates for each section in its 3-phase plan, so that both
SSA and the Congress have benchmarks for measuring the progress of the update
process.

To ensure SSA remains focused on updating all the mental disorders listings, as well as
enhance the usefulness of future APPs, we recommend that SSA establish a
performance measure for its initiative to update the medical listings, with a specific
timetable for each of the planned phases.

AGENCY COMMENTS
In response to our draft report, SSA stated that its entire strategy for maintaining the
listings has changed. In the past, listings were revised and updated on the basis of an
entire body system. The current strategy involves updating individual listings as
needed, as well as, the parallel effort to bring entire body systems up to date. SSA
agreed that updating the rest of the mental disorders listings needs to remain a key
concern for the Agency and that SSA needs to keep a focus on updating the listings
from a performance perspective. However, SSA did not agree to accomplish this
through the establishment of a performance measure, with specific timetables for each
of the phases.

OFFICE OF THE INSPECTOR GENERAL RESPONSE

The Government Performance and Results Act of 1993, Public Law 103-62, requires
SSA to develop performance indicators that assess the relevant service levels and
outcomes of each program activity. We believe that maintaining updated medical
listings for assessing disability is a crucial function for the Agency in measuring its
performance. Accordingly, we continue to believe that SSA should develop and report
on a measure to assess the service level and outcomes of its listings update activities.




                                           18
APPENDICES

                                                                          APPENDIX A


             MENTAL DISORDERS MEDICAL

                 LISTINGS TIMELINE



�   1968              Initial listings codified

�   March 1977	       Part B established - Childhood listings separated from adult
                      listings (42 Federal Register (FR) 14705)

�   March 1979	       Parts A and B updated to reflect medical advances in
                      treatment and diagnoses (44 FR 18170)

�   1983              Expert Panel on adult mental disorders convened

�   August 1985	      Parts A and B updated to reflect medical advances in treatment
                      and diagnoses (50 FR 35038)

�   September 1987	   Parts A and B established qualifications for psychiatrists who
                      review cases (52 FR 33921)

�   August 1988       Part A extended to August 1990 (53 FR 29878)

�   October 1988      Public meeting for comments on revisions (53 FR 40135)

�   August 1989       Part B proposed revision (54 FR 33238)

�   August 1990       Part A extended to August 1991 (55 FR 35286)

�   December 1990	    Part B updated to reflect medical advances in treatments and
                      diagnosis (55 FR 51208)

�   July 1991	        Part A rule proposed to revise listings, never made final
                      (56 FR 33130)

�   August 1991       Part A extended to August 1992 (56 FR 40780)

�   August 1992       Part A extended to August 1993 (57 FR 24186)

�   August 1993       Part A extended to August 1994 (58 FR 44444)




                                          A-1
   �   August 1994            Part A extended to August 1995 (59 FR 41974)

   �   August 1995            Part A extended to August 1997 (60 FR 30746)

   �   December 1995          Part B extended to June 1997 (60 FR 62329)

   �   February 1997	         Part B implemented rules for childhood disability provisions of
                              Public Law 104-193 (62 FR 6408)

   �   June 1997              Parts A and B extended to August 1999 (62 FR 30746)

   �   June 1999              Parts A and B extended to July 2001 (64 FR 29787)




Note: Part A relates to adult medical listings. Part B relates to childhood medical listings.




                                               A-2
                   APPENDIX B



AGENCY COMMENTS

COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT,
“STATUS OF THE SOCIAL SECURITY ADMINISTRATION’S UPDATES TO THE
MEDICAL LISTINGS” (A-01-99-21009)

Thank you for the opportunity to review and comment on this draft report.

The report presents a fairly clear history of SSA's efforts to keep the Medical Listings updated.
However, in the discussion of our current efforts, the report does not reflect that SSA's entire
strategy for maintaining the listings has changed. In the past, listings were revised and updated
on the basis of an entire body system. The current strategy involves updating individual listings
as needed - as well as the parallel effort to bring entire body systems up to date. We believe that
this change of strategy should be clearly noted for accuracy and so that readers outside the
Agency can be assured that every effort is being made to maintain the currency of the listings.

We agree that updating the rest of the mental disorders listings needs to remain a key concern for
the Agency. As recognized on page 7 of your report, we have finalized the partial update of the
adult mental disorders listings, and the final rule should be published shortly. We are currently
in the process of developing proposed rules to address the remaining issues requiring revision in
the mental disorders listings. In addition, we have finalized several other listings updates in the
last few months.

Our response to the report recommendation follows, as well as several technical comments that
we believe will improve the accuracy and content of the report.

Recommendation

Establish a performance measure for its initiative to update the medical listings, with a specific
timetable for each of the planned phases.

Comment

We disagree. While we agree that we need to keep a focus on updating the Listings from a
performance perspective, we do not believe that should be accomplished through the
establishment of a performance measure, with specific timetables for each of the phases.
Revisions to the medical listings are subject to several variables, some of which are not fully in
our control. One variable concerns research upon which some listings rely. The outcome of such
research can affect the timing of changes, and even whether any changes are necessary. A related
variable is consultation with non-Agency experts on some of the body systems. The advice we
receive from these experts may affect how we proceed. Third, changes to the listings are subject
to the public-notice-and-comment procedures under the Administrative Procedure Act. The
public comments we receive can affect the timing, as well as the content, of our planned
revisions. In addition, as interests and priorities in different impairment areas arise in Congress,
the Administration and advocacy groups, the timeframes and order of attention we give to
different listings will change.




                                                B-2
Nevertheless, because our listings generally are subject to 7 year sunset provisions, our
Regulatory Agendas and our Regulatory Plans contain year-to-year information on what we plan
to do to modify our listings. We have no reason to believe that this public notification process is
not satisfying the needs of Congress.




                                                B-3
                                                                        APPENDIX C


                 OIG CONTACTS AND STAFF

                   ACKNOWLEDGMENTS


      OIG Contacts

      Roger J. Normand, Director, Disability Program Audit Division, (617) 565-1822
      Rona Rustigian, Deputy Director, (617) 565-1819

      Acknowledgments

      In addition to those named above:
         Walter Bayer, Auditor
         Toy Chin, Auditor
         Katie Hallock, Auditor
         Kevin Joyce, Auditor
         Steven Kurker, Auditor



For additional copies of this report, please contact the Office of the Inspector
General’s Public Affairs Specialist at (410) 966-5998. Refer to Common
Identification Number A-01-99-21009.
                       APPENDIX D



SSA ORGANIZATIONAL CHART

